<html>
<title> - ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR 2004</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
                      ENERGY AND WATER DEVELOPMENT

                        APPROPRIATIONS FOR 2004

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED EIGHTH CONGRESS
                              FIRST SESSION
                                ________
              SUBCOMMITTEE ON ENERGY AND WATER DEVELOPMENT
                           DAVID HOBSON, Ohio

 RODNEY P. FRELINGHUYSEN, New Jersey   PETER J. VISCLOSKY, Indiana
 TOM LATHAM, Iowa                      CHET EDWARDS, Texas
 ZACH WAMP, Tennessee                  ED PASTOR, Arizona
 JO ANN EMERSON, Missouri              JAMES E. CLYBURN, South Carolina
 JOHN T. DOOLITTLE, California         MARION BERRY, Arkansas
 JOHN E. PETERSON, Pennsylvania
 MICHAEL K. SIMPSON, Idaho                                                                                  

NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
   Robert Schmidt, Kevin V. Cook, Dennis F. Kern, and Scott Burnison, 
                            Staff Assistants
                                ________

                                 PART 1
                         DEPARTMENT OF THE ARMY
                           CORPS OF ENGINEERS
                 OFFICEOFTHEASSISTANTSECRETARYOFTHEARMY
                  (CIVIL WORKS) AND CHIEF OF ENGINEERS

                                   S

                                ________
         Printed for the use of the Committee on Appropriations
                                ________
                     U.S. GOVERNMENT PRINTING OFFICE
 90-658                     WASHINGTON : 2004

                                  COMMITTEE ON APPROPRIATIONS

                   C. W. BILL YOUNG, Florida, Chairman

 RALPH REGULA, Ohio                      DAVID R. OBEY, Wisconsin
 JERRY LEWIS, California                 JOHN P. MURTHA, Pennsylvania
 HAROLD ROGERS, Kentucky                 NORMAN D. DICKS, Washington
 FRANK R. WOLF, Virginia                 MARTIN OLAV SABO, Minnesota
 JIM KOLBE, Arizona                      STENY H. HOYER, Maryland
 JAMES T. WALSH, New York                ALAN B. MOLLOHAN, West Virginia
 CHARLES H. TAYLOR, North Carolina       MARCY KAPTUR, Ohio
 DAVID L. HOBSON, Ohio                   PETER J. VISCLOSKY, Indiana
 ERNEST J. ISTOOK, Jr., Oklahoma         NITA M. LOWEY, New York
 HENRY BONILLA, Texas                    JOSE E. SERRANO, New York
 JOE KNOLLENBERG, Michigan               ROSA L. DeLAURO, Connecticut
 JACK KINGSTON, Georgia                  JAMES P. MORAN, Virginia
 RODNEY P. FRELINGHUYSEN, New Jersey     JOHN W. OLVER, Massachusetts
 ROGER F. WICKER, Mississippi            ED PASTOR, Arizona
 GEORGE R. NETHERCUTT, Jr.,              DAVID E. PRICE, North Carolina
Washington                               CHET EDWARDS, Texas
 RANDY ``DUKE'' CUNNINGHAM,              ROBERT E. ``BUD'' CRAMER, Jr., 
California                               Alabama
 TODD TIAHRT, Kansas                     PATRICK J. KENNEDY, Rhode Island
 ZACH WAMP, Tennessee                    JAMES E. CLYBURN, South Carolina
 TOM LATHAM, Iowa                        MAURICE D. HINCHEY, New York
 ANNE M. NORTHUP, Kentucky               LUCILLE ROYBAL-ALLARD, California
 ROBERT B. ADERHOLT, Alabama             SAM FARR, California
 JO ANN EMERSON, Missouri                JESSE L. JACKSON, Jr., Illinois
 KAY GRANGER, Texas                      CAROLYN C. KILPATRICK, Michigan
 JOHN E. PETERSON, Pennsylvania          ALLEN BOYD, Florida
 VIRGIL H. GOODE, Jr., Virginia          CHAKA FATTAH, Pennsylvania
 JOHN T. DOOLITTLE, California           STEVEN R. ROTHMAN, New Jersey
 RAY LaHOOD, Illinois                    SANFORD D. BISHOP, Jr., Georgia
 JOHN E. SWEENEY, New York               MARION BERRY, Arkansas
 DAVID VITTER, Louisiana
 DON SHERWOOD, Pennsylvania
 DAVE WELDON, Florida
 MICHAEL K. SIMPSON, Idaho
 JOHN ABNEY CULBERSON, Texas
 MARK STEVEN KIRK, Illinois
 ANDER CRENSHAW, Florida

                 James W. Dyer, Clerk and Staff Director

                                  (ii)


          ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR 2004

                              ----------                              

                                         Wednesday, March 26, 2003.

                      U.S. ARMY CORPS OF ENGINEERS

                               WITNESSES

HON. LES BROWNLEE, UNDER SECRETARY OF THE ARMY AND ACTING ASSISTANT 
    SECRETARY OF THE ARMY (CIVIL WORKS)
LIEUTENANT GENERAL ROBERT B. FLOWERS, CHIEF OF ENGINEERS
MAJOR GENERAL ROBERT H. GRIFFIN, DIRECTOR OF CIVIL WORKS
ROBERT VINING, CHIEF, CIVIL WORKS PROGRAMS MANAGEMENT DIVISION
    Mr. Hobson. Good morning. Welcome. The hearing will come to 
order.
    The purpose of this hearing is to receive testimony on the 
Army Corps of Engineers civil works budget for fiscal year 
2004, and they are all lined up across the front rows, I guess. 
At the table are Mr. Brownlee, the Under Secretary of the Army 
and Acting Assistant Secretary of the Army for Civil Works; 
Lieutenant General Flowers, the 50th Chief of Engineers; Major 
General Griffin, the Director of Civil Works; and Mr. Vining, 
Chief of the Civil Works Programs Division.
    Welcome, gentlemen.
    And welcome to the division chiefs who are all lined up 
behind you and the other members of your staffs in attendance 
and to our guests. Thank you all for being here at this time, 
and I am sure that your thoughts may be elsewhere this morning. 
It is good to see all of you.
    Most of you, even though this is my first hearing on the 
Corps on this subcommittee, I think I have at least met most 
all of you through my membership on the Defense Subcommittee 
and chairing MILCON, so I am familiar with some of the work 
that the Corps has done.
    I guess I should say, unlike a lot of my predecessors, I 
don't come here as a real Corps advocate. And I think you guys 
are going to have to convince me of some things as we have 
talked about before. But I know the Corps has a long, proud 
history and many enthusiastic supporters, and I am glad to have 
you show me that it can be a responsible tour with a very great 
steward of the very great responsibilities with which it has 
been entrusted.
    I spoke this morning at a group and I said, you know, one 
of the things that I want to do is try to get some things done, 
try to show this country that we can--and one of the things, 
complaints that was made to me was how long it takes to get 
some things done. And--hey, Berwick, when do you get your star? 
I just saw you. I thought you got it.
    Colonel Berwick. Sir, they have selected me. We have to be 
confirmed first and then wait.
    Mr. Hobson. That is a typical slowdown in the military. 
Made my point. I have known Colonel Berwick for a long time, 
and I am very pleased to see that he got this promotion. And I 
know, Mr. Secretary, you were very helpful in that. And we 
talked about that in Kosovo.
    Mr. Brownlee. Yes, we did, sir.
    Mr. Hobson. On a tarmac. Well, that probably distracted me 
from what I was going to say here. But let me go on.
    We have got to look at this budget. It is 10 percent below 
what was appropriated in 2003, and I have been sought out by 
quite a few people who told me this is one of the more, perhaps 
worst in a series of budgets, which causes the Corps to fall 
further behind every year in the work which we give them to do. 
And I take seriously the things that people said, because I 
think they are sober, responsible people, Members and alumni of 
this House, leaders and innovators in the type of industry 
without which this country cannot survive, much less prosper.
    And I said this morning at a meeting, the ports are very 
important. We have got to make these ports commercially 
attractive and competitive, and the rivers and the waterways. 
If not, this country is in difficulty in its trade and its 
commerce.
    Each year, the Nation and our economy are incurring 
unnecessary risks to life and property and forgoing billions of 
dollars of sorely needed economic benefits. At the same time, 
the administration says that their highest priority is 
stimulating that same economy.
    So, Mr. Brownlee, you can see that I find myself with some 
spadework to do resolving the concerns of the people who say 
the Corps is being slowly starved, for no good reason, by 
budgets such as the one under consideration. To that end, I 
have some important questions for which this subcommittee 
requires answers, and I am sure that you and your people will 
fully and completely answer them.
    I am going to--my ranking member is not here this morning, 
but he will be here. We will give him as much time as he wants 
when he gets here.
    We will accept your written statements for the record. The 
many members having questions for the record should give them 
to staff before you leave. And if there is anyone from OMB in 
the room, I would like you to carry back the message that this 
year we would like to have the answers approved in time to be 
of use to us. So if there are any OMB people here, you are 
going to be hearing from me that it is not appropriate to delay 
the answers to these questions that you have helped cause for 
so long that we can't get on with our business.
    I am going to divert a little bit this morning from my 
normal order because Mr. Berry was first, but I think Mr. 
Edwards has some comments that he would like to make in a very 
timely fashion. So I am going to--then we will go down the 
order. But you were second anyway, but if so----
    Mr. Edwards. I was here when the gavel went down, but thank 
you very much, Mr. Chairman, for your courtesy. And this is a 
little out of order, but I think it is appropriate today, 
considering the men and women in this room, someone who 
appreciates very much all of your dedication to your important 
work for our country.
    I want to bring to the attention of the committee, Mr. 
Chairman, that Mr. Ronald J. Rufenack, who is the chief of 
public affairs and legislative affairs in the Fort Worth 
district office is fighting an extremely serious battle against 
cancer. It is a battle we are not sure he is going to win. But 
I want to honor him by recognizing his 30 years of service to 
our country through the Corps and just his example for those in 
the public who aren't aware of the important work of the Corps, 
in addition to all the projects we are aware of.
    You know, Mr. Rufenack alone was a key player in dealing 
with the Hurricane Hugo disaster in South Carolina in 1989, was 
involved in a very important role in the Kuwait recovery after 
Desert Storm in 1991, and helped deal with the earthquake in 
California. To me, he epitomizes the men and women of the 
Corps, uniformed and civilian, who often, without attention or 
headlines, work day in and day out, week in and week out, year 
in and year out for the good of our country. And I just want to 
ask that the committee keep Mr. Rufenack in our prayers and in 
our thoughts in the days ahead.
    Mr. Hobson. Thank you. And I am sure we all share that. 
Cancer is a very difficult thing, and I have a person on my 
staff who has been with me for 20 years who is having the same 
battle, and it is just devastating. And so our prayers are with 
him.
    Mr. Edwards. Thank you, Mr. Chairman.
    Mr. Hobson. Let me say one other thing before we start here 
maybe. It is my understanding--and because there may be people 
that ask questions about this, and I have asked this.
    I am hoping that we have put to bed this thought about the 
Corps being split off from the Defense Department. I think in 
this time of--if we didn't believe it before, certainly in this 
time of conflict, I think the powers that be realize the 
tremendous opportunity they have for support from the Corps. 
And there are people--there are three people I know, for 
example, that are over there right now. There will be others. 
And there is certainly Corps support and things that are going 
on.
    And this is not something that is a big pot of money that 
all of a sudden would be coming to the Army. This is a whole 
reserve team, I guess I would call it. I don't think they are 
really frontline, but--I don't mean it in that way, but that 
you are there. When the demand is there, you can transition and 
move. So it probably is more cost effective than maybe some of 
the other things that we do to have this force out there. And 
we have talked about this before.
    So I just want to send a message that I think that it is a 
cost-effective thing, and hopefully you, both of you, in 
talking to the powers that be in the Defense Department have 
gotten at least an understanding, a better understanding over 
there of what service you provide to this side, but also what 
you are providing to them.
    So I just wanted to say in the beginning, we don't have to 
get into that a lot, but from my understanding, they have taken 
this to the highest portions of the Defense Department, and 
there seems to be a better understanding of your worth at this 
point. Am I correct in that? Okay.
    With that, we will start with Mr. Berry.
    I am sorry. You have an opening statement. Sorry.
    Mr. Brownlee. Mr. Chairman and distinguished members of the 
Committee and Subcommittee, first of all, I would like to thank 
you, sir--and Mr. Visclosky is not here--for the very generous 
time we had with you yesterday. And I would just like to say to 
any of the Members who we were not able to arrange meetings 
with, if you would like to meet with me, I will make myself 
available at your convenience.
    I appreciate very much the opportunity to testify before 
this distinguished Subcommittee and to present the President's 
Fiscal Year 2004 budget for the Civil Works program of the Army 
Corps of Engineers. I am accompanied this morning by Lieutenant 
General Robert Flowers, Major General Robert Griffin, and Mr. 
Robert Vining. And I might take a moment to tell the committee 
what it already knows so well, and that is that General Flowers 
is one of the Army's most capable general officers. He provides 
outstanding leadership for the Corps of Engineers, and it is an 
honor and a pleasure for me to be here alongside him this 
morning, along with General Griffin and Mr. Vining.
    I might take one second of the Committee's time, sir, just 
to recognize Ms. Jennifer Watkins. I know she served as an 
intern to a member of this Committee. When I was appointed to 
this job a little over a year ago, knowing very little about 
it, General Flowers consented to send somebody over to help me. 
I was not very hopeful that this kind of assignment would get 
the best person, but it truly has. Jennifer has been 
invaluable, and I would like to recognize her this morning in 
front of some of her former colleagues here. Jennifer, stand 
please.
    Mr. Hobson. Jennifer just got a suntan.
     Mr. Brownlee. Mr. Chairman, I understand that our 
statements will be included in the record, and I will summarize 
that statement for the Committee. Also, with your indulgence, I 
would like to just take a moment or two for a personal thought, 
sir, because, as I said about a year ago, when I became aware 
that the President intended to appoint me as the Acting 
Assistant Secretary for Civil Works in addition to my other 
duties, I viewed that with some dread because, frankly, I knew 
less about this part of the Army than I did other parts, and, 
admittedly, I did not have strong interest there.
    But after almost a year in this job, I just want to be sure 
the Committee understands that it truly has been a pleasure for 
me. Although dealing with very difficult issues with very 
strong feelings on all sides of these issues, the great 
pleasure for me has been to have the opportunity to know and 
work with the wonderful people in the Corps of Engineers. I 
have over 40 years of uninterrupted military and Federal 
service, and I can truthfully say that these are some of the 
finest people I have ever known. And Mr. Rufenack, I am sure, 
is typical of those kinds of people, both military and 
civilian, that I have grown to know and respect and admire in 
the Corps of Engineers.
    The Corps very, very frequently is the agency that has to 
make the hard decisions on some of these very difficult and 
complex issues. They have to draw the line somewhere, and many 
times those who are left out of what they see as the right side 
of the decision are unhappy. And the Corps picks up a lot of 
criticism in the media.
    But I just would like to report my view, Mr. Chairman, that 
these are among the most dedicated, good, capable, hard-working 
Americans that I have ever had the pleasure to know and work 
with. And the American people can take great pride in what they 
do both at home and abroad. They serve the Army and the Nation 
exceedingly well, and I am proud to be associated with them and 
to have the opportunity to represent them here this morning, 
along with General Flowers.
    With that, Mr. Chairman, I can report that the total Civil 
Works budget for fiscal year 2004 is $4.2 billion. This is 
approximately the same amount as the total Civil Works budget 
for 2003.
    The budget places priority on ongoing studies and projects 
in the Corps's primary missions of commercial navigation, flood 
and storm damage reduction, and aquatic ecosystem restoration. 
The budget emphasizes completing the ongoing construction 
projects that have completed the Executive Branch review 
process, and are economically justified, environmentally 
acceptable, technically sound, and consistent with cost-sharing 
policies.
    The budget provides efficient funding for the 13 projects 
that can be physically completed in fiscal year 2004 and for 
eight other ongoing projects that are high priorities of the 
Administration, as well as substantial funding for the flood 
protection projects on the main stem of the Mississippi River. 
Consistent with the focus on projects that already are under 
construction, the budget limits funding to plan, design, or 
initiate new projects. However, the budget does provide funding 
for 22 ongoing design efforts that are estimated to provide 
substantial economic and environmental returns and that are 
nearing completion.
    The budget includes a number of studies and management 
initiatives that are designed to support the administration's 
priorities, to improve program effectiveness, and to improve 
the quality and objectivity of project planning and review. The 
budget includes funding for reconnaissance studies that 
exemplify the watershed-based approach to solving water 
problems. In addition, the budget includes $2 million for an 
analysis of whether completed Corps projects are delivering 
benefits as planned. Further, the budget includes $3 million to 
institute an independent review of the proposed projects that 
are likely to be costly, complex, or controversial.
    The budget focuses navigation operation and maintenance 
funding on harbors and waterways with high volumes of 
commercial traffic. The budget limits operation and maintenance 
funding for those shallow-draft harbors and inland waterways 
that have little commercial use, and includes $1 million to 
study long-term options for operation and maintenance of those 
projects.
    The budget emphasizes antiterrorist protection of Civil 
Works projects and facilities, and includes $104 million to 
improve the protection of facilities where the consequences of 
an attack would be great.
    The budget for the regulatory program will enable continued 
improvements in protection of the Nation's wetlands and in the 
efficiency of permit reviews and decision-making.
    The budget provides $70 million for the Flood Control and 
Coastal Emergencies account. This amount will enable us to 
respond to major emergencies and to finance most, if not all, 
recovery costs in a typical year.
    The budget includes legislative proposals to expand the 
uses of the Inland Waterways Trust Fund and the Harbor 
Maintenance Trust Fund. The budget also includes a legislative 
proposal for Federal power marketing administrations to 
directly finance the specific operation and maintenance costs 
of Corps of Engineers hydropower facilities.
    The Civil Works program is separately accountable to the 
President for implementing the President's management agenda. 
We are making progress on improving performance planning, 
financial management, human capital planning, competition 
planning, and e-government.
    In summary, I believe the Fiscal Year 2004 Civil Works 
budget is balanced in accordance with the Nation's current 
priorities and will make productive contributions to the 
Nation's economic and environmental well-being.
    I look forward to working with this Subcommittee on these 
important issues, and appreciate very much your continuing 
support. Thank you, Mr. Chairman.
    Mr. Hobson. Thank you.
    General Flowers.
    General Flowers. Mr. Chairman, distinguished members of the 
subcommittee, I am again honored to be testifying before you, 
along with the Under Secretary, on the President's fiscal year 
2004 budget for the Army Civil Works program.
    Today, thanks to this subcommittee's strong support, the 
Civil Works program is balanced, responsive, and highly 
productive. I look forward to your continued partnership in 
this important program so broadly beneficial to the Nation.
    My complete statement covers more details on the fiscal 
year 2004 program, the backlog, future water challenges, 
transforming the Corps, our business management system, and the 
overall value of the Corps to the Nation's economy in the 
national defense. With your permission, I will summarize some 
of the major points.
    First, a word about the President's budget and the value of 
the Civil Works program to the Nation's economy and the 
environment. We will work aggressively to make the most 
efficient use possible of the fiscal year 2004 President's 
budget for the Army Corps of Engineers. This budget funds the 
critical water resources infrastructure that has improved the 
quality of our citizens' lives and provided a foundation for 
the economic growth and development of this country. Our 
projects for navigation, flood protection, ecosystem 
restoration, hydropower generation, and recreation directly 
contribute to national economic might. The stream of benefits 
realized has reduced transportation costs, avoided flood and 
storm damages, and improvements in environmental value are 
considerable.
    Just a few numbers in which you might be interested:
    The navigation program you fund enables 2.4 billion tons of 
commerce to move on navigable waterways. The U.S. Department of 
Transportation estimates that these cargo movements have 
created jobs for 13 million people.
    Another fact: Corps flood damage reduction structures have 
saved taxpayers $21 billion in damages every year in addition 
to the lives they have saved.
    And another: Private industry contractors carry out almost 
all of our construction work and over 50 percent of our civil 
planning and engineering. That is money that goes directly into 
the economy.
    This budget also includes funding to support watershed 
studies. These studies will allow us to work collaboratively 
with many stakeholders. With the complexity of water problems 
today, we believe this is the direction we must take to develop 
the best, most comprehensive solutions.
    Our backlogs. We estimate it will cost more than $21 
billion to complete the construction projects in the 
construction general program funded in the fiscal year 2004 
budget. In the maintenance backlog, we continue to be 
challenged as well.
    Now, you can see from the numbers I just cited on the value 
of Corps projects that our infrastructure is a critical element 
in a strong economy. Sustaining this level of service becomes 
more of a challenge as our infrastructure ages. The funding 
required at the end of fiscal year 2004 to complete the high-
priority maintenance work, in the Operation and Maintenance 
account, is slightly over $1 billion. That represents an 
increase of about $127 million over last year, and I can assure 
you that I will continue to do all that I can to make these 
programs as cost effective as possible.
    I would like to talk briefly about future water challenges 
and a few thoughts about water. Last fall, the American Water 
Resources Association sponsored a seminar on the need for a 
more comprehensive water policy in the Nation. Conflicting 
demands for water are increasing across the country and exist 
in almost every watershed. Solution to these complex problems 
will not be easy. Development of such policy will, in turn, 
require collaboration of many government organizations at all 
levels. You have my assurance that the Corps stands ready to 
assist you and the administration in this effort.
    On Corps transformation, there are many interested in 
transforming the Corps inside and outside of the organization. 
Some may have the larger goal of changes in current water 
policy in mind; others may want us to operate more efficiently 
and effectively. We are listening to all of these good ideas, 
and I have met with individuals, industry groups, and interest 
groups to hear what they have to say. I have issued 
communications principles to ensure that all within the Corps 
are practicing open, effective, and timely two-way 
communication with the entire community of water resources 
interests. And let me assure you, I am committed to working 
with you and all who are interested, and doing all in my power 
to transform the Corps to meet the Nation's needs.
    And a subject dear to my heart, the value of the Civil 
Works program to the national defense. And, Mr. Chairman, I 
thank you for your comments. You all can be very proud that the 
Civil Works program is a valuable asset in support of the 
National Security Strategy in many ways. For instance, we have 
a trained engineering work force with world-class expertise 
capable of responding to a variety of situations across the 
spectrum of national defense. In fact, skills developed in 
managing Corps projects transfer to most tactical engineering-
related operations.
    As an example, to date, 250 civilian members of our Civil 
Works program team have volunteered for deployment in support 
of Operation Enduring Freedom, providing engineering, 
construction, and real estate support. They wear uniforms like 
those of Active Duty military personnel and, by civilian 
standards, live under Spartan conditions. Nevertheless, they 
are inspired by the knowledge that they are participating in an 
important mission.
    And just a quick vignette: Two members of the Corps team in 
Iraq have even captured enemy prisoners. Lieutenant Colonel 
Mike Flynn from the Galveston district and Ron Timmermans from 
our Southwest Division had one Iraqi soldier surrender to them, 
asking for food and water, as they were inspecting a gas/oil 
separator in Iraq. And John Forestland from our Tulsa district 
had five Iraqis come out and surrender to him and some EOD 
personnel as they were inspecting another gas/oil separator in 
the Rumala oil fields.
    In summary, the Corps is committed to staying at the 
leading edge in providing service to the Nation, and I truly 
appreciate your continued support to this end.
    Thank you, Mr. Chairman, and members of the subcommittee. 
This concludes my statement.
    Mr. Hobson. Thank you, General.
    Now we will go to Mr. Berry.
    Mr. Berry. Thank you, Mr. Chairman.
    Mr. Hobson. Before you start, I am going to be asking you 
guys some questions later on. So if someone wants to think 
about it, I want to know where you are in this, because I can't 
find you in here. And so somebody needs to tell me where you 
are if you are not in it and how you are going to get in it.
    This is the emergency supplemental. These are the slides.
    Go ahead.
    Mr. Berry. Thank you, Mr. Chairman. You may remember last 
week when we had the Department of Interior before the 
committee, I made a comment that it wasn't that complimentary 
to the operations of the Department of the Interior in the 
district that I represent.
    But I would say just the opposite about the Corps of 
Engineers, and I would concur with what Secretary Brownlee has 
said this morning. I may be the biggest fan in the Congress of 
the Corps of Engineers, with the possible exception of my 
distinguished colleague from the boot heel of Missouri, Mrs. 
Emerson.
    But I live with the Arkansas River on one side, the White 
River on the other side, and the Mississippi River on the third 
side. And they are all part of the MR&T, and if it were not for 
the Corps of Engineers, I don't know how many times we would be 
flooded. But in my lifetime it has never happened, and it 
happened a lot before that. So I am a big fan of the Corps not 
only for that, but for a lot of reasons. And I appreciate very 
much what you do and the way you do it and the very cooperative 
spirit and relationship that I have always had with you. So I 
am glad you are here.
    I remember last year when this particular meeting took 
place, I was not on the committee, but you guys may have the 
feeling that you are sitting on that trapdoor that may be 
sprung any minute. So I don't want to cause anybody to fall 
through a crack here, and at the same time I think we all are 
concerned about the possible litmus test or the direction of 
this attempt to disband the Corps and what have you. And if you 
have any comments along those lines, I think we would like to 
hear them.
    And certainly I think we all agree we need to get a 
Secretary in place. And that is no comment on the job that you 
are doing, Mr. Brownlee, but I have dealt with acting 
situations before, and I appreciate the situation you are in.
    And so I would be interested in what you have--your 
thoughts about that, if you want to express them. And if you 
are not comfortable doing that, please feel free to just 
completely ignore what I have said, because I don't want to 
create any problems for anybody.
    And the other thing I would ask about. I am a little bit 
concerned about the lack of maintenance money for inland 
shallow water harbors. Thank you.
    Mr. Brownlee. Sir, I will comment on the subject that the 
chairman raised and that you raised about the possible movement 
of the Civil Works function. I, of course, have heard the same 
things you have probably heard. But no one has directed me as 
the Acting Assistant Secretary for Civil Works to do anything 
in that regard, nor do I have any plans to do anything in that 
regard.
    Mr. Hobson. Do you have any more?
    Mr. Berry. Mr. Chairman, I would just invite you to come to 
the district that I represent to see the wonderful work that 
the Corps of Engineers does and why we love them so much.
    Mr. Hobson. We are trying to get everywhere.
    Mr. Edwards.
    Mr. Edwards. Secretary Brownlee, General Flowers, General 
Griffin, thank you for being here. I am going to defer to 
written questions, specific concerns or questions I have about 
individual projects.
    I would like to go, Secretary Brownlee, back to your 
comments. You were quoted as saying in your opening remarks, 
this budget is approximately the same amount as in 2003. Now, I 
can't find anywhere your testimony as to whether the 2004 
budget is an increase, a decrease, or truly the same as the 
2003 budget. What I have begun to conclude this year is, when 
Secretaries come in and say, our budget is approximately what 
it was the year before, it usually means your budget was cut 
probably by the same OMB that thinks we ought to cut military 
education, children's funding, at a time that mom and dad are 
fighting for our country in Iraq.
    So I know these cuts aren't proposals that were initiated 
by you. Can you tell me, just for a fact, how does this budget 
request relate to the actual appropriations for the Corps in 
2003? More, less, or the same?
    Mr. Brownlee. The budget request for fiscal year 2003 was 
4.1----
    Mr. Edwards. I want to know what was actually appropriated 
in 2003 versus what you are requesting in 2004.
    Mr. Brownlee. I was going to start with the request for 
2003, which was $4.165 billion.
    Mr. Edwards. Okay.
    Mr. Brownlee. The appropriated amount was $4.6 billion and 
the budget in fiscal year 2004, the Administration's budget, is 
$4.194 billion.
    Mr. Edwards. So when you say ``approximately the same 
amount,'' what you are really talking about is 500, about a--
more than a $400 million cut.
    And I know my colleagues often raise a very legitimate 
question: When is a cut a cut in Washington? It is when you are 
spending less money this year than you spent last year. So, for 
the record, then your budget has been cut by $500 million.
    The question: Does that take into account--are those real 
dollars or does that not include inflation and salary increases 
of, I guess, approximately 3 or 4 percent?
    Mr. Brownlee. I believe it is in real terms.
    Mr. Edwards. So does that assume a 4 percent salary 
increase, the cost of a 4 percent salary increase?
    Mr. Brownlee. Yes, sir, it covers that.
    Mr. Edwards. I am seeing one head go this way.
    Mr. Brownlee. It has to be absorbed.
    Mr. Edwards. It has to be absorbed. That is a good way of 
saying that that is not taken into account. So if you say that 
you are not going to be the only Federal agency to not give 
your employees the pay raise authorized by Congress, then, you 
know, we could be adding hundreds of millions of dollars. So 
you could well be a billion dollars below what we actually 
appropriated last year.
    And I know you will do the best you can with those dollars, 
but I want to get on the record when we have the testimony of 
``approximately the same amount,'' we are really talking about, 
potentially, a billion dollar cut in what is a $4.6 billion 
budget. So we are talking about potentially a 20 percent cut in 
the Army Corps of Engineers' budget at a time when this 
subcommittee gets thousands of requests from Republicans and 
Democrats alike for add-ons in addition to the budget. Is that 
correct?
    Mr. Brownlee. Certainly if you take it from the 
appropriated amount, it is a bigger gap than if you look at 
what was requested in each year.
    And, sir, I can only say that with respect to the nation's 
current priorities with the global war on terrorism and the war 
ongoing and the other issues, the priorities and the dollars 
available, hard decisions are being made, sir.
    Mr. Edwards. You are being very statesman-like, Mr. 
Secretary. And considering what happened to the previous person 
in your position, I respect your opinion.
    Thank you, Mr. Chairman.
    Mr. Hobson. Ms. Emerson.
    Mrs. Emerson. Thanks, Mr. Chairman.
    I want to associate my remarks, at least at the outset, 
with those of my neighbor, Mr. Berry from Arkansas, including 
those comments about shallow water harbors. So we are very 
concerned about that budget item.
    Let me direct my first question to you General Flowers, if 
I might. Tell me what the Corps's plans are for the physical 
security of its projects, particularly the upper Mississippi 
locks and dams.
    General Flowers. Following 9/11, we immediately did a 
complete survey of all of our critical infrastructure projects 
and came up with a priority listing of work that needed to be 
done to better secure that infrastructure. And we have gone 
about funding, in priority, those projects in order to better 
secure them. And this budget contains $104 billion for that 
purpose.
    Mrs. Emerson. Okay.
    Well, then as a follow-up to that to some extent, Secretary 
Brownlee--thank you--I don't want to put you on the hot seat 
with this question. But are you really, really serious about 
your proposal for changes in the Inland Waterway and Harbor 
Trust Funds?
    Mr. Brownlee. Where those trust funds have accumulated 
balances over the years, to use them for either the harbors or 
the inland waterways would appear to be a good use of those 
balances.
    Now, I fully recognize that we are going to have to monitor 
this very closely. But certainly to use those funds for that 
purpose--the inland waterways or the harbors, whichever 
purpose--where there is an accumulated balance would appear to 
be reasonable.
    Mrs. Emerson. Let me ask you something, then. Are those 
funds that have been segregated aside for purposes of ongoing 
construction projects, have those been utilized to date for 
ongoing construction projects?
    Mr. Brownlee. To my knowledge, they have.
    Mrs. Emerson. Okay. So if in fact--say, for example, if we 
are putting a big emphasis on--I mean, this is all related to 
homeland security, in my opinion. If we have got, say, six of 
eight projects that are ongoing right now, doesn't it seem that 
it--doesn't it only make sense to use the money from the trust 
that are collected, the tax dollars that are collected for that 
to continue those ongoing projects? And if we divert that money 
to operations and maintenance, aren't we then unable to 
complete those ongoing projects which you in your testimony 
said we were trying to focus on?
    Mr. Brownlee. And we are, and I am not aware of an 
inconsistency there. But the intent of this proposal is to use 
those funds that are contributed, of course, by the users not 
only for the construction projects, but also for the operation 
and maintenance of those waterways, as opposed to----
    Mrs. Emerson. That have been, traditionally, your 
responsibility, the Corps's responsibility. Right?
    Mr. Brownlee. Yes.
    Mrs. Emerson. But if there is a backlog on operations and 
maintenance--and I will ask General Flowers what the capability 
is versus what you actually are going to get--I mean, how then 
are we going to be able to make sure that not only are these 
projects completed in a timely manner, and hopefully under 
budget, but also how are we going to protect these inland ports 
and waterways from any kind of terrorist activity if we are 
diverting the money elsewhere?
    Mr. Brownlee. We have provided additional moneys for 
protection of critical facilities. We have done that.
    I would not tell you that I think we have protected 
everything adequately. I am sure there are places where we 
could do more. But in accordance with the priorities as we have 
seen them, we think we have done that.
    Mrs. Emerson. Well, you know, I don't want to take any more 
time; it is unfair to all my other colleagues.
    But, you know, first of all, I disagree with that decision. 
And perhaps it was OMB's decision, and I am not going to ask 
you to say one word, because as everyone says, we are afraid 
you won't be there next week if we do. But let me say that I 
don't personally feel that we can ask the users to pay yet more 
and higher taxes to cover the shortfalls that your budget has 
in this area. So I would hope that you would either revisit the 
decision or not complain too hard if we revisit it for you.
    Thank you, Mr. Chairman.
    Mr. Hobson. Thank you. And the projections are that the 
trust fund would be depleted in 3 years. And I don't know what 
you are going to do after this, if you would take and use the 
trust fund.
    Mr. Frelinghuysen.
    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Mr. Secretary, gentlemen, particularly to those in uniform. 
And I know all the members pay tribute to you and particularly 
to your counterparts in Iraq. Regardless of their service, I 
think a lot of Americans don't know the role that the engineers 
play in winning wars in incredibly inhospitable, dangerous 
environments, combat engineers, construction engineering, doing 
some incredible work. And I think it is--I am glad that you 
mentioned that you have, I guess on the civilian side, people 
who have volunteered to assist in that endeavor. That is an 
incredible tribute to their professionalism, and I think it is 
worth echoing those sentiments.
    In a wartime setting, the notion of Civil Works takes on a 
whole new meaning, General Flowers. Can you talk a little more 
about what you are doing in terms of homeland defense on the 
war on terrorism? We know from the New York and New Jersey area 
the things that were done, in many cases unheralded things that 
were done by the Corps in terms of the aftermath. But a lot has 
been done across the Nation that has not been well advertised--
the Army Corps has done relative to the domestic war on 
terrorism in our homeland defense.
    General Flowers. Yes, sir. I would be very happy to do so 
and thank you for the opportunity.
    We have been working very closely with NORTHCOM, the newly 
created command with the emerging office of Department of 
Homeland Security. We have developed a methodology for rapid 
assessment of critical infrastructure, which we are sharing 
with other agencies and much of the private sector through an 
organization called the Infrastructure for Security 
Partnership, which we helped found. It is about 100 
organizations now that are working very hard to figure out how 
to better protect the Nation's built-in environment. We are 
doing that nationally.
    We are also working closely with our partners in the Coast 
Guard on better security of our ports. We have consulted with 
many States and local governments on how to better see to their 
infrastructure. And, I think, going back to what we were 
talking about earlier, there are three of my general officers 
who are not here today because they are, in fact, in Iraq 
serving--General Hawkins from Lakes and Rivers Division, 
General Creer from Southwest Division, and General Carl Strock, 
my Director of Military Programs. They are all forward with a 
number of our people doing preparation for supporting what is 
happening now and doing preparations for what is to come.
    Mr. Hobson. Tell him about the civilian guy who volunteered 
to go interface with the people.
    General Flowers. Oh, yes. One of my senior executive 
service civilians, Mr. Steve Browning from SPD, volunteered to 
go over. And he is working with General Garner and his group on 
preparations and plans for the reconstruction of Iraq.
    Mr. Frelinghuysen. We salute those efforts. And Mr. 
Secretary----
    Mr. Brownlee. I might just add that as most of the members 
of this Committee know, following the attack of 9/11 on the 
World Trade Center, the Corps of Engineers played a critical 
role in that recovery effort. And there was even a threat to 
the wall that protects flooding from the Hudson River. The 
Corps of Engineers was asked to go in and make an assessment of 
that for which, thank God, we had the kind of expertise that 
allowed them to do that.
    Mr. Frelinghuysen. They did a superb job. Certainly, from 
those of us that represent that neck of the woods, they did a 
fantastic job.
    To General Temple, if I may: The President, to his credit, 
has recognized the importance of navigation of the New York, 
New Jersey channels. And I think that indeed is part of a 
National Security Strategy. And this committee, as you are 
aware, General, 2 years ago directed that the projects within 
the harbor be consolidated to meet those types of navigational 
interests; and that consolidation, I believe and I think most 
people believe, saved us quite a lot of Federal dollars.
    Can you tell us where you stand relative to the 
implementation plan to consolidate both the New York and New 
Jersey Harbor, where it stands and the costs involved and the 
extent to which we are meeting those objectives?
    General Temple. Yes, sir. Together with all of our 
stakeholders in the region on this important project, we 
developed the consolidation report in August of 2002, and the 
revised project management plan was published in January of 
2003, just a few months ago. And that plan essentially is able 
to compress the schedule to the extent that we believe we will 
be able to save at least 2 years, that is, completing sometime 
in early 2014, and could realize potential savings of at least 
$100 million by going forward with this consolidation plan.
    The key to this compressed time line, however, is 
successful execution of the PCA in May of 2004. And all the 
stakeholders understand that, and we are moving in that regard, 
sir.
    Mr. Frelinghuysen. Good. I appreciate that update. Thank 
you very much.
    Thank you, Mr. Chairman.
    Mr. Hobson. Mr. Peterson.
    Mr. Peterson. Good morning. I want to welcome you and thank 
you for the service you provide our country and our 
communities.
    It is my first year on the committee and, of course, many 
of you are not strangers to me. My district is full of Corps 
projects; It is a very large, rural district in Pennsylvania. 
And I want to thank you for coming by and visiting with me 
recently, too.
    An issue that one of my staff, who uses one of your 
facilities regularly for camping, has a lot of criticism of is 
the recreational reservation system. Is it still controversial? 
I mean, he claims that people--and I am going to try to 
remember what he tells me regularly, that when people register 
there for a weekend, it is like the reservation system blocks 
it off for the week even though they are only coming for the 
weekend. And people call in, and a lot of those sites are empty 
for Monday through Thursday, but when they call in they are 
told there are no openings.
    General Flowers. Sir, I will look into any specifics that 
you can give me. We went to an automated nationwide reservation 
system some years ago, and I believe it is next year we will be 
consolidating that with the other recreation providers in the 
Federal--with Park Service, et cetera--so that we have a 
combined reservation facility.
    And while the first year we had a number of complaints, we 
do survey the public as we go along, and we have gotten better 
and better each year. So while I know it is not perfect and 
there are some things we have to fix, I had not heard that 
specific complaint before.
    Mr. Peterson. That is the one that they just block it out 
for the week, and so you call in and they are all full, and yet 
they are half-empty--and very popular; some of them are very 
popular sites. And so we will get you some details on that.
    General Flowers. Yes, sir.
    Mr. Peterson. For the record, if you can just share with 
me--not here, but in writing--what your maintenance plans are 
on Whiskey Lake and Tioga Hammond Lake. You have some money 
budgeted for extra maintenance there. And if you could just 
share that with me, I would certainly appreciate that.
    An issue that I don't know as much about, but I have had 
some phone calls on, claiming there is going to be a reduced 
level of service on the upper Allegheny. And that would have a 
negative impact on both tourism and commerce, because that is a 
pretty busy river with commerce. And I don't have details, 
but----
    General Flowers. Sir, nor do I. I would like to take that 
one for the record and provide you that information.
    Mr. Peterson. Okay.
    One more I wanted to mention, and this is futuristic. But 
Kinzua Dam is a large reservoir to operate, totally surrounded 
by the Allegheny National Forest, one of the most beautiful 
waterways, 128 miles of shoreline; but we have very limited 
recreational use of that because you can't get there. I mean, 
there are only a couple of sites.
    How would we go about doing a study to look at--maybe in 
conjunction with the Forest Service, to look at how we can 
expand recreational buildings there? Because it is just a 
gorgeous place.
    General Flowers. Well, I am very familiar with the Kinzua 
Dam, sir. I was born just a few miles from there. In fact, 
Kinzua Dam covered up my family's hunting camp.
    Mr. Peterson. And your favorite deer crossing.
    General Flowers. But I would say that, if directed, we 
would be very happy to study that.
    Mr. Peterson. Yes. Okay, we will talk to the chairman about 
how we can. But I think you agree with me, it is breathtaking. 
It is beautiful.
    But you go by on a beautiful July day where a bridge 
crosses part of it, and you are lucky if you see three boats 
moving, and all of that space, 128 miles of shoreline--there is 
not a lot. And it could be a great tourist attraction and it 
could be a great enjoyment to many Americans if we just can 
open it up somehow.
    Thank you. I look forward to working with you.
    Mr. Hobson. Mr. Pastor.
    Mr. Pastor. Thank you, Mr. Chairman.
    Good morning, Mr. Secretary. Welcome. Welcome to the 
committee. And I am happy to hear that that infamous white 
paper that was being discussed, I guess last year or a year and 
a half ago, has been shredded or thrown away. So thank you for 
that.
    And I am really happy that General Flowers this morning 
reminded us of the valued contributions that the Civil Works 
program makes to the national economy when he talks about 13 
million jobs and 21--what, $2.4 billion for commerce, and the 
jobs that go to the private contractors, the engineers. That is 
millions of dollars that go there, and that produces a lot of 
jobs. So I am glad you took the time to give us that 
information. It seems that it is not as well publicized, and 
many people out there don't know the good stuff you do. And so 
I just want to thank you for doing that.
    Watching TV, especially the Academy Awards, was very 
discouraging and depressing and boring, and so I found a copy 
of the President's budget. That is equally as depressing.
    After I got to the Corps section, I was really depressed. 
But there was an item in there that caught my attention, and it 
deals with a project that is ongoing down in Tucson, Arizona. I 
no longer represent it, but it is a good project. The benefit-
to-cost ratio at the Randolph Park-Rio Chico project down there 
is about--the benefit is $1.09 to the $1 we are investing; and 
in the budget, they highlighted that this was a marginal return 
and it was invaluable. And I have to tell you that in Tucson 
they are delighted that the investment provides a 9 percent 
return. But there was a reference there that kind of disturbed 
me, and I will read it.
    Under the new policy, which aims to maximize the net 
benefits of the program and takes into account limitations on 
investment funds, the second group of detention basins will not 
be recommended for construction.
    Now, I don't know what the new policy is, and that is the 
question because my understanding is that the existing 
principles and guidelines are one-to-one ratio, cost-to-
benefit. But under this sentence, there is supposed to be a new 
policy that will be developed, and I just want to know why we 
are deviating from the currently accepted formula, one-to-one.
    Mr. Brownlee. Sir, I would suggest that as it applies to 
this budget year, about which I mentioned that we have national 
priorities with respect to a global war on terrorism, homeland 
security, and a war ongoing in Iraq, and where tough decisions 
have to be made, certainly those projects that have the highest 
payback return would be favored over those with lower payback 
returns.
    There is no new policy that I have initiated or that has 
been initiated by the Corps.
    General Flowers. Sir, I am not aware of a new policy.
    Mr. Pastor. Okay. So we are still at the one-to-one ratio?
    General Flowers. Yes, sir.
    Mr. Pastor. Well, let me ask this question then.
    As you look at the projects and you see the budget cuts, 
what do you determine a good investment? Nine percent, is that 
enough? Or are we looking for 10 percent or 50 percent? How are 
we determining this?
    General Flowers. Sir, I don't think there is a magic 
number. I think the principles and guidelines are pretty clear. 
If you have a benefit-cost ratio that exceeds one, then you 
have a viable project. And I think what was put forth in the 
budget was trying to use an example of a project that has the 
higher benefit-cost ratio probably being funded before one that 
has a lower benefit-cost ratio. And I think that is what was 
reflected in that paragraph that you quoted from.
    Mr. Pastor. So do you think that 9 percent return is not a 
good enough return, so that this project--and this project has 
been going on for about 8 years. And it goes right in the 
middle of Tucson, and it is to protect flooding, and it is 
still producing 9 percent. And the recommendation is that the 
second group of detention basins will not be recommended for 
construction.
    So it kind of--you know, it is a longstanding project. It 
is still running 9 percent, and yet OMB and the budget is 
saying we are not recommending it. And so I am just trying to 
get a better feeling of what would be considered a good 
investment.
    General Flowers. Sir, I think the only thing we have to 
rely on is what principles and guidelines tell us right now.
    Mr. Pastor. One-to-one.
    General Flowers. One-to-one, yes, sir.
    Mr. Pastor. Okay.
    General Flowers. And the project also received our design 
award.
    Mr. Pastor. What was that?
    General Flowers. That project also received our design 
award when it was completed.
    Mr. Pastor. Well, I know that. That is why I am puzzled. I 
had, and another subcommittee had, the opportunity to meet 
Mitch Daniels. And I saw him--not big in stature, but he is 
really, he is a normal-sized guy--and I just wonder if some of 
the decisions they are making down there, whether or not, in 
fact, they are implementing new policy, without the changes 
that need to be made for the former basin.
    I am just concerned about that.
    Mr. Brownlee. Nobody has told us there is a policy, so we 
are operating that those with the highest paybacks would be 
looked at first or decisions would have to be made or 
priorities have to be made.
    Mr. Pastor. Mr. Chairman, I was disappointed to hear that 
when you pulled up that stimulus--the supplemental, you said 
that--what was it, the Corps of Engineers? I submitted to your 
staff probably the highest priority project that they have, and 
I am sorry it didn't get in there, but maybe we can work that 
out.
    Mr. Hobson. Mr. Latham.
    Mr. Latham. Thank you, Mr. Chairman, I want to go back to 
the Inland Waterway Trust, and the chairman brought up a great 
point. Could you just for the record tell us what the balance 
is in that trust fund and under this proposal how many years it 
would take to deplete the balances in the trust fund?
    Mr. Brownlee. I don't know the exact dollar amount that is 
in the trust fund.
    General Griffin. Sir, it is over $400 million that is in 
the trust fund.
    Mr. Latham. And the proposal would take how much out of 
that?
    Mr. Brownlee. Could we take that for the record?
    General Griffin. I have no idea what it is on an annual 
basis.
    [The information follows:]

                       Inland Waterway Trust Fund

    Congressman Latham. Could you just for the record tell us what the 
balance is in that Trust Fund and under this proposal how many years it 
would take to deplete the balances in the Trust Fund? And the proposal 
would take how much out of the Trust Fund?
    Mr. Brownlee. At the beginning of the FY 03, the balance in the 
Inland Waterway Trust Funds stood at $412.6 million. At the current 
rate of revenues and earnings, if the proposal were to become law the 
Trust Fund would become insolvent in FY 2006. The proposal transfers 
$146 million annually, plus inflation, from the Trust Funds, to support 
inland waterway Operation and Maintenance.

    Mr. Latham. The chairman thought it would take 3 years to 
deplete it.
    Mr. Brownlee. That is a projection. We would certainly 
intend to monitor it and look at it over that time period.
    Mr. Latham. And the chairman and I would like to ask what 
do you do after 3 years?
    Mr. Brownlee. As I said, we would be monitoring it to see 
what happened to the level of funding and if in fact we 
anticipated it was going to be depleted, then we would have to 
reconsider the policy or something else.
    Mr. Latham. Okay. Understanding how important the 
Mississippi River is for everyone in the Midwest, can you give 
us an update on the Upper Mississippi Navigation Feasibility 
Study, where you are with the economic and environmental 
compliance reports on the needed improvements? I would like to 
know if you have the resources necessary to complete the study 
on time and will you complete it, I guess, on time? And what 
happens if we do not get this done in a timely fashion?
    General Flowers. Sir, I would like to take that one if I 
could. The initial report for the Upper Mississippi study came 
out last summer, and we are working very hard and I think we 
have the resources necessary to complete the study on time, 
hopefully in time for the Water Resources Development Act in 
2004.
    Mr. Latham. What would be the consequences if in fact the 
kind of improvements we are talking about were not made?
    General Flowers. Sir, I think what we have done with the 
reinitiation of the Upper Mississippi Navigation Study has 
gotten into a very collaborative process where we involve all 
the stakeholders, public, NGOs and everyone, in this, and I 
think the recommendations that come out of this Upper 
Mississippi Navigation Study will have a much--or a very broad 
consensus of what must be done. What you have to remember is 
many of the projects on the upper Mississippi are at or have 
exceeded their life cycle. So we are hoping at the conclusion 
of this study, if there are recommendations for doing work, 
that it be done as quickly as possible. And of course the 
longer you put off the results of a study like this, then the 
longer you have to wait to initiate any of the recommendations. 
So we are working very hard to try to finish this in a timely 
fashion, with this collaborative process keeping everyone 
involved so that the recommendations that are made reflect a 
broad input and consensus.
    Mr. Latham. Could you just, for the record, I guess maybe 
give us some examples of the condition of some of the locks and 
dams there and what the situation is, why it is so necessary? 
And I just--it is frustrating for me for us to be in a 
competitive basis in exporting, especially agricultural 
products. The U.S. Taxpayers have put a tremendous number of 
dollars in the World Bank and IMF, which has basically funded 
the infrastructure in South America. And because of their 
ability now to surpass us--to compete with us using dollars 
that we have provided and we are not in a position to compete 
because of situations that we have in our own navigation 
systems, very frustrating I think for everyone in agriculture 
today.
    General Flowers. Yes, sir. I think you point up a great 
thing that we are doing our best to take into consideration in 
this study. One of the things that became very controversial as 
we were conducting the original study was the inability to 
include worldwide markets and macroeconomics in a look at this 
project, and we are attempting to do that as we move forward.
    One thing we are doing is hosting an economic summit on 
river economics next month where we are trying to bring 
together some of the best in the business to review current 
models, et cetera, to try and figure out the best ones to use 
for making projections into the future. So as you are aware, 
what we attempt to do when we are doing large projects like 
this is we have to predict 50 years into the future what the 
economic outcome is going to be, and that is very difficult.
    Mr. Latham. Could you provide us with information about 
that meeting, where it is and what----
    General Flowers. We would be happy to.
    Mr. Latham. Does that complete your answer?
    General Flowers. Yes, sir.
    Mr. Hobson. Mr. Doolittle.
    Mr. Doolittle. Thank you, Mr. Secretary, and ladies and 
gentlemen, welcome. I have a couple of questions that may 
perhaps be more in the direct purview of General Davis, and 
maybe he will decide he will want to submit this for the record 
but I would like to ask. One pertains to the Yuba River Basin 
project. This project is a flood control project near 
Marysville, California, and is one that I am particularly 
interested in moving forward. Both Congress and the California 
State legislature have authorized this project. The State and 
local cost share is ready and Congress recently provided the 
Corps with a half million dollars in fiscal year 2003 
construction funds.
    My question is if Congress should appropriate $1.5 million 
in fiscal year 2004 construction funds for this project, could 
the Corps utilize these funds and begin construction this 
calendar year?
    General Davis. Right now we are planning to complete the 
design in March 2004 and can start construction shortly 
thereafter.
    General Griffin. We can use that 1.5 million in 2004.
    Mr. Doolittle. And when do you think this project might be 
completed?
    General Davis. I have to get back to you.
    General Griffin. Start it in 2005. Completion date we will 
have to answer it. If funding works out and we get all the land 
easements and rights-of-way, we are looking at a 2005 start 
right now.
    Mr. Doolittle. Okay. In reviewing your fiscal year 2004 
budget I see the estimated cost of the Fulsom Dam modification 
project has risen by another $20 million to a total estimated 
cost $214.7 million. In that $20 million increase is $8 million 
for price escalation and construction, $5 million for design 
changes and $7 million for other estimated adjustments? And I 
guess I would like to ask if you could explain why these costs 
have risen so much in 1 year.
    General Davis. Sir, I know you have been very involved with 
your concerns on Fulsom Dam and the costs on Fulsom Dam, and we 
are as well. We have actually brought in--in consultation with 
you and your office, we brought in an outside firm to take a 
look at our costs and to do a review, and I don't have the 
specifics yet of the response to that study, but I will 
certainly either personally get with you or have my Sacramento 
DE do that.
    Mr. Doolittle. I think you are referring to the study on 
the Fulsom Race. I realize these projects are certainly 
interrelated to some degree, but this is with reference to 
modifications and I understand you may not be prepared at this 
time to get into the specifics of that.
    General Davis. We are also doing an internal look at our 
own estimates and our own design costs and at the same time as 
we look at the race, we are doing that for the mods as well.
    Mr. Doolittle. Two other questions: One would be do you 
feel the current estimate is going to be an accurate final 
estimate of the total costs?
    General Davis. I think so, sir. Taking both our best 
estimators and have taken an outside agency to review our work 
and to check our figures.
    Mr. Doolittle. What is the project completion time frame 
for the Fulsom Dam modifications, which I understand by 
necessity must precede the racing of the Fulsom Dam?
    General Davis. I have to take that one for the record, 
please.
    Mr. Doolittle. Mr. Chairman, do I have a moment or two 
left?
    Mr. Hobson. Yes.
    Mr. Doolittle. I would like to--and this is a more 
generalized--still with General Davis. Dealing with restoration 
of the abandoned mine sites of the RAMS program, which is a new 
program within the Corps to provide environmental restoration 
at abandoned mine sites known as RAMS, and this process is a 
nontraditional stakeholder driven program that positions the 
Corps to act not as the lead but indeed as an equal partner at 
most abandoned mine sites, while it supports activities and 
priorities set by Federal, State and other stakeholders, it is 
my understanding that $5 million was provided due to the 
efforts of Congressman Gibbons and Congressman Young of Alaska 
to get the initial funding going. This is provided in 2001. And 
with a small amount of funding, the RAMS program has initiated 
work in over 60 projects with over 20 different State and 
Federal stakeholders in 10 States, including Nevada, Alaska, 
California, Montana, New Mexico and Idaho. I understand with 
limited funding it has been successful and highly responsive to 
the States and the other Federal agencies. My questions are, 
could you give me a status of this program, how you feel it is 
working?
    General Davis. Yes, sir. As you mentioned, it has been a 
very successful program that has covered a lot of actions, a 
lot of States and we have reached the funding limit that was 
originally authorized for RAMS. In order to continue that work 
we would have to have a new authorization and an additional 
appropriation.
    Mr. Doolittle. And without the expanded authority and 
additional appropriations then are you saying the RAMS program 
would not be continued into fiscal year 2004?
    General Davis. Yes, sir.
    Mr. Doolittle. Would not be?
    General Davis. That is correct.
    Mr. Doolittle. Is it safe to assume that the Corps' current 
Director for Civil Works and Director for Military Programs do 
support the RAMS program?
    General Davis. I hate to answer for my superiors on that 
one, sir.
    General Flowers. It has been a successful program.
    Mr. Hobson. So then you would support it?
    General Flowers. Sir, if we were directed, we would 
definitely support it.
    Mr. Doolittle. Are you asking for support?
    Mr. Hobson. I think the gentleman's time has expired.
    Mr. Visclosky.
    Mr. Visclosky. Thank you, Mr. Chairman. Mr. Secretary, 
first of all, I would congratulate you on your service and your 
comportment. You have come in at a very difficult time for the 
Corps. I think you have done the best job possible under very 
difficult circumstances. The fact is dealing with Corps 
personnel on a daily basis I feel you have the finest servants 
of the United States of America under your charge and am very 
frustrated about our collective inability to get a very 
positive message out about the Corps' doing, as I described it 
in the past, God's work. You do flood control projects and I 
have an active flood control project in the First Congressional 
District of Indiana. Some people might consider that Pete 
Visclosky bringing home pork. I would point out to anybody who 
would that the last time the Little Calumet River flooded 
somebody lost their life. I would point out that there is an 
active harbor dredging program in the First Congressional 
District. It is necessary for commercial purposes.
    Mr. Latham expressed his frustration. I would express my 
anger not at any of you, not at the Corps, but at what I 
consider the bipartisan failure of the administration since I 
have come to Congress to recognize that we are losing in the 
international arena partially--there are many factors involved 
here--but because of our lack of investment in our economic 
infrastructure to make this thing go. That is not a waste of 
money. It is not a waste of money when that harbor also is one 
of the most toxic hot spots on the Great Lakes and you are 
trying to improve people's health and safety in the communities 
I represent.
    And again, this is replicated across this country. You are 
doing environmental restoration in the State of Florida the 
last time I looked. I bet there are multiple States you are 
doing environmental restoration. And despite people's, if you 
would, impression of the Corps' worst instincts, and that is 
they don't care at all what happens to the environment, that is 
categorically not true. People have been critical of beach 
nourishment on the floor of the House of Representatives. Beach 
nourishment in front of Mount Baldy, which is the highest and 
last major topographical feature on the Lake Michigan shoreline 
in the State of Indiana, is there today because of what the 
Army Corps did.
    A number of Members for the time I have been here have 
quipped about the pall that has been cast over this hearing by 
the Office of Management and Budget, that some people who were 
here previously aren't here now. That makes me angry because 
the people on this subcommittee represent an equal, coequal 
branch of the Federal Government under the United States 
Constitution and we have an obligation, let alone a right, to 
ask any one of you anything we want about your budget and to 
get truthful answers from you and not to have to put you on the 
spot and be concerned about getting someone fired. I am angry 
about that. I respect General Flowers' courage for talking 
about national water policy.
    We are in a conflict in the Middle East today for a number 
of reasons, but obviously oil is an element of that conflict. 
Over the next 100 years I think my sons are going to be much 
more worried about the water, either having to drink it in the 
first place or the quality of it, if they can get their hands 
on it. I represent Lake County, Indiana, which is Lake County, 
Indiana because it is on Lake Michigan. I have communities in 
Lake County, Indiana on Lake Michigan, which is part of the 
largest body of fresh water on the planet Earth that, one, have 
no access to water because they happen to be on another divide 
with the Mississippi Valley watershed. They can't stick a well 
in their backyard and get water. And other places that can 
can't get good water. And the General has the courage to talk 
about what we should be thinking about, a national water 
policy. Mr. Edwards talked about, listen, you are $400 million 
short--and I am not blaming here. I have the highest respect 
for you. That is an abject economic failure and coupled with 
those types of decisions, again under administrations of both 
political parties year in and year out, now lead us to a 
situation where our critical backlog is over $900 million and 
it gets worse every year.
    I could ask you questions and I will for the record about 
preconstruction engineering and design. Last year we had 95 
projects. This year we have 19. Well, what happened? We don't 
have enough money. You referenced several times, well, we have 
a lot of responsibilities here but there are other things on 
the agenda like the global war on terrorism. Last time I 
looked, this body gave you 108 million bucks for security as 
part of homeland security and part on the war on terrorism and 
you weren't allowed to spend it by the Office of Management and 
Budget. Now that makes me angry because the whole issue of 
safety of dams, safety of water supplies, safety in harbor, 
everybody is talking about it every day. Where is the money? It 
ain't here. Where is it? What happened to it? And again I am 
not talking about anybody here, but I am an angry guy. And I 
think that this is just wrong and I just hope somebody wakes up 
some day on economic infrastructure, and it is this 
subcommittee's responsibility, the commercial losses we are 
facing every day because we are not adequately funded and the 
safety and the jeopardy we are putting constituents in because 
we are not adequately funding.
    Mr. Chairman, now that I got that off my chest, I do have a 
question or two, and one is on the Great Lakes Navigation 
Study. Last year General Hawkins indicated that he expected the 
negotiations on the general scope of work for the feasibility 
study would commence within the next several months with the 
St. Lawrence Seaway Management Corporation and St. Lawrence 
Seaway Development Corporation as well as bi-national 
navigation interests. The 2004 justification material, however, 
indicates that the 2004 funding will be used to continue the 
ongoing reconnaissance phase. Could I ask what the status is on 
that?
    General Griffin. On the navigation study itself, as you 
know, we do have to have the Canadians as partners on this but 
we are working very hard with the Department of Transportation 
now to sign an agreement where we can begin the detailed scope 
of that project. There is no problem with it. It will happen. 
Everybody is on board with it, and we need to work through the 
process to get a partnering agreement with the Canadians and 
then we can move forward with that.
    Mr. Visclosky. I do have a large number of questions and in 
the interest of time because I have gone on here, I will submit 
those. And one in particular I am submitting on behalf of 
myself as well as Mr. Rothman, a member of the committee, 
regarding a project in Hackensack Meadows, New Jersey and would 
attach special importance to that, too.
    Mr. Hobson. Let me read something to all of you. This is a 
quote. ``I am firmly convinced that but for the existence of 
the Corps of Engineers' peacetime organization and its 
resources of men, methods, training and supply and its close 
association with the military through the years, the history of 
the specific area in World War II would have been written more 
in blood than in achievement.'' That was General Dwight 
Eisenhower, Chief of Staff, in a hearing before the Committee 
on Armed Services on H.R. 3830 in 1947, which is quite a 
tribute to all of you, and I am sure it is true today.
    I have got a couple of things that I would like to ask and 
some of them are going to be strange to all of you but just 
bear with me. How many people here are from the Corps of 
Engineers? How many are civil engineers of that group? I am 
glad to see that. I get people who come to see me, and once I 
had an Air Force guy came to see me and I thought he was an 
engineer but he turned out to be a lawyer. And it didn't go 
very well. So that is good. Maybe you can't answer this, but I 
am concerned about the fact that you are not getting--this $108 
million is only symptomatic of something. What I am concerned 
about is in the supplemental which we are doing for national 
defense and a lot of security types of things, I don't know 
that you people are in there. And I am concerned also that in 
homeland defense, you are not getting the money to do the 
things on the rivers and the waterways in dollars that should 
be adding to this budget, which we would all agree we don't 
like. So I want to figure--I think we all need to figure out 
how we talk to OMB--and I don't know if anybody knows how to do 
that, but maybe they do, to get an understanding of the 
exposure that this country is in, not only its economic 
achievements but in its ability to defend its rivers and 
harbors so that not only just commercially but from a national 
defense standpoint, because let me say that these guys 
mobilized out of Fort Campbell and they went down to a port. 
People are mobilizing out of places and there are ships coming 
in and taking things from ports here to support those troops. 
Those are, in my opinion, active duty stations today. Those are 
not peacetime ports anymore. There should be money being funded 
for a number of bills, not just this bill, but out of the 
Defense bill, out of Homeland Defense to do this work. You 
should be coordinating it, but there should be money there. We 
as a committee here, and I just talked to Mr. Latham here, urge 
you to talk among yourselves to figure out and talk to these 
chairmen and try to talk to OMB and say this is a critical need 
and not something to play games with. And I suggest people will 
look at it and say, well, this is at the Port of Louisiana or 
down someplace in Alabama and it is not really in the conflict. 
It is. It is in the conflict, and it is something that I think 
we need to look at. You probably share that, but I want to say 
it here that all the people that are taking notes all over are 
taking notes that this is going to be a focus, and I am going 
to talk to Hal Rogers. I am going to talk to the big chairman 
and see, but I need numbers and we need the facts. We don't 
want to go to him and say money, but we need facts and figures 
of what our responsibility should be in this committee, but 
also what should be the responsibility of these other 
committees. And this is one of the things we all have to figure 
out as we move through this period of change and how we look at 
appropriations and things of this sort, kind of like what you 
are going through in the BRAC thing, to make sure we don't 
duplicate things but we get them done in the right direction.
    Which leads me to a question. General Flowers, in your 
remarks on transformation it sounds like you are amenable to 
listen to everyone who wants to give you an opinion on the 
future direction of the Corps, but you should be in the best 
position to see the whole playing field as it is. What is your 
opinion of what the Corps can do and what the Corps must not do 
in order to make sure that you keep that trust and confidence 
that some people have said is not there but I think many of us 
say is there, and what kind of advice are you getting from your 
staff and others?
    General Flowers. Thank you, Mr. Chairman. I think, as I 
mentioned, I have talked to a lot of people and we listened to 
a lot of great ideas and I think having a discussion about 
transformation and the potential for having in an authorization 
bill some opportunities for the Corps to be a more responsive 
organization is something we ought to focus on. For example, I 
think as I have testified before, the Corps is not afraid of 
outside review or peer review. What I would caution, though, is 
it ought to be a review, if and when it is done, that doesn't 
add significant time and expense to an already lengthy and 
expensive process. So we would look for ways to be as efficient 
and as timely as we could with our service.
    The second thing is a review of principles and guidelines, 
and that would have to be undertaken in concert with other 
agencies because this is a multi-agency principles and 
guidelines. But they are about 20 years old now and I think it 
may be time for us to review those.
    Mr. Hobson. Is there any place for an independent review or 
how do you review that?
    General Flowers. In this budget we have asked for $3 
million to fund some independent review. We have employed 
independent review on some of our projects already. We will 
employ independent review on the Upper Mississippi Navigation 
Study, on the Everglades, because those projects are we think 
controversial enough that we welcome our funding up front, the 
ability to have our work checked as we perform it. But I think 
there is potential for having concurrent review by a group that 
is independent of Corps employees and we will experiment with 
that somewhat in fiscal year 2004 with the $3 million that is 
requested in this budget. And we think--we will take a look at 
about six or seven projects with that. We haven't selected 
those projects yet, but if the money is appropriated, we will 
and be prepared to report back on our lessons learned as we go 
through that.
    Mr. Hobson. One I want to talk about here, and I am going 
to take a look at this over the break, is the--in the 
transformation is what you are doing in the Florida Everglades 
and could you tell us a little bit about this project, your 
goals, and explain how this is an example of the Corps becoming 
a different organization, which I happen to think is a great 
project to maintain for the future of this country, along with 
other waterways that Pete was talking about? But this is one we 
probably should have gotten in earlier, but did you want to 
explain that.
    General Flowers. Yes, sir. I think whenever the Nation has 
had a tough job that was kind of difficult to see how you would 
get it done, they have been able to turn to the Corps of 
Engineers and we have come through. A couple of examples would 
be the building of the Space Center at Cape Canaveral. When the 
President made his announcement in 1961 we were going to be on 
the Moon at the end of the decade, no one knew how we were 
going to get there, but we knew we would need some sort of a 
launch platform and the Corps was put to work on it right away 
without anybody knowing what the launch vehicles might look 
like. And we are doing the same thing with the Everglades. It 
is a 30-year project to restore a very valuable ecosystem. We 
are at the front end of a very open and collaborative process 
bringing all of the interested parties to the table, Dialog 
Inc., on how best to make this happen. As you are aware, we 
went in beginning in about 1947 with direction from Congress to 
drain the swamp. We did that. It created quite a bit of 
development in eastern--southeast Florida. Now we have been 
directed to restore the Everglades and provide flood protection 
still for those people in southeast Florida, and it is a 
daunting task. But we will be able to pull this off. We are 
pushing science and engineering as we have on other projects 
that have been entrusted in us, and I am confident we will be 
able to do this. When this project is completed, you will have 
a healthy ecosystem that replicates the ecosystem that existed 
prior to the 1940s that still provides flood protection for the 
people of southeast Florida.
    Mr. Hobson. Thank you. We are going to have two votes here. 
I just want to say one other thing and this has nothing to do 
with you guys, but I read the rebuilding and you got some 
people on the rebuilding and I want to send some messages on 
this and I think a lot of people hopefully share what I am 
going to say here. But I hope we do give a lot of coalition 
contracts to--or contracts to coalition members and that we 
don't give contracts to people who have been openly and 
notoriously adverse to--and have helped probably in my opinion 
delay and cause more of our young people to go into harm's way 
for a longer time than would have happened; namely, a country I 
served in at one time and a couple of other countries who have 
not been helpful in the protection of our troops while they 
have been there. And I think it is outrageous if AID and you 
got a guy sitting there watching it. If anything happens we are 
going to start giving contracts out to these people, this 
Congress I think will want to know. This is not because we want 
to make money out of this deal, but the people who have been 
nonsupportive of our troops and who made this conflict more 
difficult should not be, in my opinion and this Congress's 
opinion, rewarded for that type of activity and they should not 
get the benefit of these taxpayers' dollars, a lot of which is 
going to go into this rebuilding. And so I am really upset when 
I read about this sort of thing and the demands being made by a 
certain embassy that they be included. Give me a break. I may 
go back to some of the Traficant stuff by saying beam me up. 
But, you know, it is frustrating and I want to say this. I 
share the ranking member's frustrations about water quality and 
some of the spots that we have got. And I think some of the 
things we need to do is get some refocus on what you all do, 
and we are going to look at that jointly from this committee 
standpoint together on this.
    We have got two votes. I don't want to hold these people. 
They have things they have got to do. If people have questions 
for the record, we will accept those today, but I want to make 
that admonishment back to the people at OMB that we need these 
answers back. I am not going to embarrass you and have you 
stand up, but--let me tell you I will in the future. If we 
don't get a response to these in a timely fashion, I will do 
some things that I would rather not do. Thank you very much for 
the hearing.


GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT



</pre></body></html>
